                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




               Audit Report

Monitoring of CACFP Sponsor, Collaborative
           Network, Toledo, Ohio




                             Report No. 27601-37-CH
                                      February 2009
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                         Midwest Region – Audit
                                    111 North Canal Street, Suite 1130
                                       Chicago, Illinois 60606-7295




REPLY TO
ATTN. OF:      27601-0037-Ch

TO:            Ollice Holden
               Regional Administrator
               Food and Nutrition Service

THROUGH: Marva Mosley
         Director, Financial Management

FROM:          John W. Pepper       /s/
               Acting Regional Inspector General

SUBJECT:       Monitoring of CACFP Sponsor, Collaborative Network, Toledo, Ohio


This report presents the results of our audit of the Child and Adult Care Food Program as
operated by Collaborative Network of Toledo, Ohio. The purpose of the audit was to evaluate
allegations of non-compliance with program regulations. To accomplish this, we evaluated
whether Collaborative Network had fulfilled its administrative and financial responsibility for
program funds.

Your agency’s response to the official draft report, dated February 13, 2009, is included in its
entirety as exhibit D, with excerpts and the Office of Inspector General’s position incorporated
into the Findings and Recommendations section of the report. Based on the response, we have
reached management decision on all recommendations in the report. Please follow your agency’s
internal procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the cooperation and assistance provided by your staff during this audit.
Executive Summary
Monitoring of CACFP Sponsor, Collaborative Network, Toledo, Ohio

Results in Brief                     This report presents the results of our audit of the Food and Nutrition
                                     Service's (FNS) Child and Adult Care Food Program (CACFP) as
                                     administered by the State agency (SA), the Ohio Department of Education
                                     and Collaborative Network (CN) of Toledo, Ohio, as the sponsoring
                                     organization. Our objectives were to determine the validity of allegations1
                                     against CN regarding non-compliance for program regulations and its impact
                                     on CACFP. We evaluated whether CN fulfilled its administrative and
                                     financial responsibility for CACFP funds according to FNS instructions,
                                     program regulations, and the SA’s policies and procedures. Besides CACFP,
                                     CN also administered several other programs as part of its operations.

                                     A complaint made to OIG in December 2007 alleged that CN had
                                     commingled funds, kited2 checks, processed employee payroll untimely on at
                                     least three occasions, and retained three employees without an adequate
                                     source of program income to meet their payroll. We determined FNS
                                     regulations allowed the commingling of accounts under certain circumstances
                                     and we found no evidence that employees had been paid late. Although CN
                                     did not kite checks, we found the sponsor did not always pay its providers
                                     timely and because of CN’s negative cash flow the integrity of the sponsor’s
                                     CACFP funds were at risk.

                                     We determined CN’s financial viability to be in question because of the
                                     sponsor’s negative cash flow, which occurred when the cash outflows during
                                     a period were higher than the cash inflows during the same period.
                                     Specifically, we determined the sponsor (1) used $195,469 in CACFP funds
                                     to pay non-program expenses, (2) increased an existing line of credit
                                     (to $150,000) by improperly using CACFP funds as collateral, (3) obtained
                                     $85,000 in operating loans from unallowable3 sources, and (4) performed
                                     accounting functions that did not adhere to Generally Accepted Accounting
                                     Principles (GAAP).

                                     Further, we noted that CN paid day care home providers up to 16 days late on
                                     7 different occasions because it had used CACFP’s provider reimbursement
                                     funds as operating funds to offset its negative cash flow.

                                     We discussed CN’s financial viability with FNS officials who agreed that CN
                                     borrowed CACFP funds to meet its monthly operating expenses. Since CN
                                     eventually paid CACFP administrative and operating expenses using funds
                                     from the sponsor’s other grant funds, FNS would not require CN to reimburse

1
  OIG Hotline complaint
2
  An illegal scheme whereby a false line of credit is established by exchanging worthless checks between two banks.
3
  Not bona-fide lenders
USDA/OIG-A/27601-37-CH                                                                                                Page i
                   the $195,469 in full. However, CN would be required to reimburse the
                   CACFP funds used for unallowable costs totaling $12,436 for improper loan
                   principal and interest payments, improper allocation of administrative costs,
                   and unallowable late fees claimed for reimbursement. We agree with this
                   action.

                   Our review also disclosed another contributing factor that caused the CACFP
                   to operate in a negative cash flow condition. CN had operated the CACFP at
                   a loss of $12,599 over the scope of our review, October 2006 through
                   February 2008. Overall, between 2003 and 2006, CN had operated with
                   losses in 3 of 4 years that totaled $114,501. Based on the results of our
                   review the SA, the Ohio Department of Education, and the Food and
                   Nutrition Service (FNS) also question CN’s financial viability.

                   During the audit, we also concluded that the SA had not properly documented
                   a monitoring review of CN performed in 2005. The SA failed to provide a
                   report to the sponsor and inform the sponsor of a fiscal action for overclaims
                   totaling $22,136. The SA was unable to ensure the debt was ever established
                   or collected from CN.

Recommendations
In Brief           We recommended that FNS instruct the SA to require CN to (1) establish one
                   bank account for only CACFP, (2) exclude CACFP operational and advance
                   administrative funds as collateral for the line of credit, and (3) restrict the
                   sources of loans to bona fide lenders. We recommended FNS instruct the SA
                   to ensure CN adheres to GAAP in its financial transactions and reporting, and
                   that FNS instruct the SA to collect $12,436 (see exhibit A) from CN.

                   We also recommended that FNS ensure the SA collects the overclaims by CN
                   totaling $22,136 and implement corrective actions required by the SA to
                   resolve any issues or problems.

                   Agency Response

                   In their response, dated February 13, 2009, agency officials agreed with all of
                   the findings and recommendations in the report. The officials have taken
                   corrective action on some of the recommendations, while actions on other
                   recommendations are underway. We have incorporated applicable portions of
                   the response, along with our position, in the Findings and Recommendations
                   section of this report. The agency’s response is included in its entirety as
                   exhibit D of the report.




USDA/OIG-A/27601-37-CH                                                                     Page ii
                   OIG Position

                   We agree with the corrective actions FNS has taken, or plans to take, and
                   have reached management decision on all recommendations in the report.




USDA/OIG-A/27601-37-CH                                                              Page iii
Abbreviations Used in This Report


CACFP               Child and Adult Care Food Program
CFR                 Code of Federal Regulations
CN                  Collaborative Network
FNS                 Food and Nutrition Service
FNSRO               Food and Nutrition Service Regional Office
FY                  Fiscal Year
GAAP                Generally Accepted Accounting Principles
ME                  Management Evaluation
NSLA                National School Lunch Act
ODE                 Ohio Department of Education
OIG                 Office of Inspector General
P.L.                Public Law
SA                  State Agency
SAE                 State Administrative Expense
USDA                United States Department of Agriculture




USDA/OIG-A/27601-37-CH                                           Page iv
Table of Contents

Executive Summary ................................................................................................................................. i

Abbreviations Used in This Report ...................................................................................................... iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1 - Integrity of CACFP Jeopardized by Sponsor’s Negative Cash Flow ......................... 3

        Finding 1 CACFP Funds Used for Non-program Expenses ........................................................ 4
                         Recommendation 1........................................................................................... 5
        Finding 2 Program Funds Collateralized for Line of Credit ........................................................ 5
                         Recommendation 2........................................................................................... 6
                         Recommendation 3........................................................................................... 7
        Finding 3 Operating Loans Obtained from Unallowable Sources ............................................... 7
                         Recommendation 4........................................................................................... 8
                         Recommendation 5........................................................................................... 9

    Section 2: Accounting Methodologies Not According to Generally Accepted Accounting
                  Principles ................................................................................................................... 10

        Finding 4 Income and Administrative Expenses Were Overstated ............................................ 10
                        Recommendation 6......................................................................................... 12
                        Recommendation 7......................................................................................... 12
                        Recommendation 8......................................................................................... 13

    Section 3: State Agency Did Not Provide Adequate Oversight for CACFP Sponsoring
                   Organizations ........................................................................................................... 14

        Finding 5 State Agency Did Not Retain Adequate Documentation of Sponsor’s
                     Monitoring Reviews .............................................................................................. 14
                         Recommendation 9......................................................................................... 16
                         Recommendation 10....................................................................................... 16

Scope and Methodology........................................................................................................................ 17

Exhibit A – Summary of Monetary Results ....................................................................................... 19
Exhibit B – Non-program Expenses Paid with CACFP Funds ........................................................ 20
Exhibit C – Dates Collaborative Network Paid Providers Late ....................................................... 21
Exhibit D – Agency Response .............................................................................................................. 22


USDA/OIG-A/27601-37-CH                                                                                                                     Page v
Background and Objectives
Background                            Collaborative Network, (CN) located in Toledo, Ohio, is a sponsoring
                                      organization for day care provider homes that serve meals to children
                                      enrolled in the U.S. Department of Agriculture’s (USDA) Child and Adult
                                      Care Food Program (CACFP). Collaborative Network was formed in
                                      1987 and began operating CACFP on October 1, 2002. In 2007,
                                      Collaborative Network received meal reimbursements totaling $979,784 to
                                      pass on to its day care home providers and also received $177,162 for its
                                      administrative costs.

                                      CACFP is authorized under Section 17 of the National School Lunch Act
                                      (NSLA) (42 United States Code 1766)4. Program regulations are issued by
                                      USDA under 7 Code of Federal Regulation (C.F.R.) part 226. CACFP plays a
                                      vital role in improving the quality of day care and making it more affordable
                                      for many low-income families. Nationwide, each day, 2.9 million children
                                      receive nutritious meals and snacks through CACFP. The program also
                                      provides meals and snacks to 86,000 adults that receive care in nonresidential
                                      adult day care centers. CACFP further extends its services by providing
                                      meals to children residing in emergency shelters, as well as snacks and
                                      suppers to children participating in eligible after school care programs.

                                      USDA’s Food and Nutrition Service (FNS) administers CACFP through
                                      grants to States. The program is administered within most States by the
                                      State’s educational agency. In Ohio, the Ohio Department of Education is the
                                      responsible State agency (SA). FNS makes State Administrative Expense
                                      (SAE) funds available to SAs for administrative expenses incurred in
                                      supervising and giving technical assistance to institutions participating in
                                      CACFP.

                                      Independent centers and sponsoring organizations enter into agreements with
                                      their administering SAs to assume administrative and financial responsibility
                                      for CACFP operations. Collaborative Network, a sponsoring organization,
                                      began participating in the CACFP on October 1, 2002, and is a sponsor for
                                      day care homes. Day care homes must be licensed or approved to provide day
                                      care services.

                                      Sponsoring organizations, such as CN, must submit accurate monthly claims
                                      for reimbursement to their administering agencies. Sponsoring organizations
                                      are responsible for maintaining records and sufficient supporting
                                      documentation to demonstrate that CACFP costs claimed have been incurred,
                                      are allocable to the program, and comply with the SA’s financial


4
    Section 17, National School Lunch Act (42 United States Code 1766), as amended by P.L. 110-246, dated October 1, 2008.
USDA/OIG-A/27601-37-CH                                                                                                       Page 1
                   management requirements. The sponsoring organization must apply
                   consistent use of Generally Accepted Accounting Principles (GAAP).

                   A complaint made to the Office of Inspector General (OIG) Hotline in
                   December 2007 alleged that CN had commingled funds, kited checks,
                   processed employee payroll untimely on at least three occasions, and retained
                   three employees without an adequate source of program income to meet their
                   payroll.

                   We also coordinated the work performed in this audit with OIG’s Western
                   Region. They are conducting an audit to evaluate corrective actions taken as a
                   result of a prior nationwide audit effort in 1999. We provided them the results
                   of this audit to aid in assessing the impact of corrective actions taken in that
                   audit on the CACFP.

Objectives         The objective of this audit was to determine the validity of allegations against
                   CN and their impact on CACFP. Our audit evaluated if the sponsor
                   adequately fulfilled its administrative and financial responsibilities for the
                   CACFP funds according to FNS regulations and State policies and
                   procedures.




USDA/OIG-A/27601-37-CH                                                                      Page 2
Findings and Recommendations
Section 1 - Integrity of CACFP Jeopardized by Sponsor’s Negative Cash Flow

                                        CN’s financial viability was compromised because of its persistent negative
                                        cash flow.5 From October 2006 through February 2008, CN’s cash account
                                        had a negative balance 25 times. To offset the negative cash flow, CN took
                                        inappropriate actions that jeopardized the integrity of CACFP as administered
                                        by CN and resulted in meal reimbursements to providers being paid up to
                                        16 days late. Specifically, we determined the sponsor had (1) used CACFP
                                        funds to pay non-program expenses, (2) obtained a line of credit improperly
                                        using CACFP funds as collateral, and (3) obtained loans from unallowable
                                        sources to pay its operating costs. This also resulted in the sponsor claiming
                                        costs for unallowable items totaling $11,401.

                                        In the past few years, CN lost a number of day care home providers that
                                        either changed sponsors or discontinued participation in the program. In
                                        fiscal year (FY) 2006, CN had sponsored 360 day care providers; however,
                                        by FY 2008, that number had dropped (50 percent) to 179. As the number of
                                        day care home providers decreased, CN incurred a corresponding loss in
                                        CACFP administrative funding. Our review of CN’s general ledger
                                        determined that within the 17-month period from October 2006 through
                                        February 2008, CN’s cash account balance reached a negative position
                                        25 times. During those times, the account remained negative an average of
                                        7.9 days with an average negative balance of $24,547.

                                        State agency (SA) officials recognized that CN was losing providers and tried
                                        to help CN adjust to the decrease in administrative funding by informing
                                        CN’s home providers that they could not transfer to another sponsoring
                                        organization until the end of the fiscal year. The SA believed this extra time
                                        would allow CN to revise its budget and maintain the CACFP program.
                                        However, through our analysis of CN’s financial records, we noted that CN
                                        did not make the required effort to revise its administrative budget to
                                        compensate for loss of income as evidenced by the entity’s continued
                                        negative cash flow, and the need to obtain additional funding over and above
                                        administrative funds.

                                        We determined the CACFP is not a self-sustaining program within CN
                                        because of the accumulated loss of administrative funds that, over a
                                        17-month period from October 2006 through February 2008, totaled $12,599.
                                        Additionally, our examination of CN’s independent audit reports for FYs
                                        2003 through 2006 disclosed an accumulated operating loss for the sponsor in
                                        the amount of $114,501.


5
    Negative cash flow is commonly defined as a situation where cash outflows during a period are higher than the cash inflows during the same period.
USDA/OIG-A/27601-37-CH                                                                                                                           Page 3
Finding 1                            CACFP Funds Used for Non-program Expenses

                                     Between October 2006 and February 2008, CN used CACFP funds to
                                     improperly pay for $195,469 in non-program expenses to meet its overall
                                     monthly operating expenses (see exhibit B). CN’s checking account
                                     commingled CACFP funds with funds of its other grant programs. The
                                     sponsor paid any bills that were due with whatever funds were available in its
                                     commingled checking account. This compromised the CACFP’s integrity
                                     because sufficient funds were not always available to timely reimburse the
                                     day care home providers for the meals they had served.

                                     FNS instructions6 permit commingled accounts under CACFP, but the
                                     integrity of the CACFP funds must remain intact and they can only be used
                                     for program purposes or allowable costs. The instructions require sponsoring
                                     organizations to fund unallowable costs from non-program sources.7

                                     Our analysis of CN’s banking and accounting records disclosed that CN paid
                                     its monthly operating expenses from one commingled checking account. This
                                     allowed CN to use $195,469 in CACFP funding for expenses relating to other
                                     grant programs and to pay unallowable costs. For example, $5,023 of CACFP
                                     funds were used for repayment of an unallowable line of credit, and
                                     $6,378 was used to repay unallowable loans from non bona-fide lenders.
                                     (These unallowable costs are discussed in the following findings of this
                                     section.) CN paid whatever expenses were due with whatever funds were
                                     available at the time, regardless of the source of the funds.

                                     The commingled account allowed CN to continue paying monthly expenses
                                     despite a negative cash flow. However, it did so at the cost of delaying
                                     payments to providers. CACFP regulations require sponsoring organizations
                                     to make reimbursement payments to providers within five business days of
                                     receipt of funds from the State agency.8 Because it had used CACFP funds to
                                     pay for non-program expenses, we noted CN had paid providers up to
                                     16 days late, on 7 separate occasions (see exhibit C).

                                     During the audit, we discussed CN’s situation with FNS officials. Based on
                                     our discussions, FNS officials stated that while CN had borrowed from
                                     CACFP funds to pay other non-program costs, the CACFP funds were
                                     eventually replaced by using other grant sources to pay CACFP expenses.
                                     Therefore, CN would be responsible for reimbursing the SA for only the
                                     unallowable costs that total $12,436 (see exhibit A).


6
  FNS Instruction 796-2 Revision 3 (IX B 3 b)
7
  FNS Instruction 796-2 Revision 3 (VIII G)
8
  7 C.F.R. 226.16 (h)
USDA/OIG-A/27601-37-CH                                                                                      Page 4
                                      We concluded that CN’s use of its commingled checking account
                                      compromised the integrity of CACFP. Requiring CN to maintain a separate
                                      bank account for CACFP reimbursements and expenditures would better
                                      assure the proper use of program funds as well as timely provider
                                      reimbursements. FNS officials concurred.

Recommendation 1

                                      Instruct the SA to require CN to maintain a separate bank account for CACFP
                                      reimbursements and expenditures to better ensure the integrity of the
                                      program.

                                      Agency Response

                                      FNS agreed with the recommendation. The SA provided FNS with the
                                      documentation it received October 1, 2008, from the bank confirming CN
                                      had established a business checking account and a separate CACFP checking
                                      account.

                                      OIG Position

                                      We accept FNS’ management decision.



Finding 2                             Program Funds Collateralized for Line of Credit

                                      CN maintained a line of credit with its bank that improperly secured CACFP
                                      funds as collateral for its debt. Once the line of credit had been fully
                                      exhausted, CN was only able to make the interest payments due. The
                                      executive director stated she had not been aware that CACFP funds had been
                                      included as collateral. As a result, CN left CACFP funds vulnerable.

                                      In 2000, prior to beginning participation in CACFP, CN obtained a
                                      $100,000 line of credit from its bank. CN used the line of credit for operating
                                      expenses when funding from its sources was not timely received. When CN
                                      began operating CACFP in 2002, any CACFP funds on deposit with the bank
                                      became part of the collateral for the line of credit. The promissory note,
                                      signed by the executive director in 2000, described collateral for the debt as
                                      all accounts “whether now owned or hereafter acquired.”

                                      FNS instructions prohibit the use of CACFP administrative advances and
                                      provider reimbursement as collateral to secure loans under any
                                      circumstances.9

9
    FNS Instruction 796-2 Revision 3 (IX D 8)
USDA/OIG-A/27601-37-CH                                                                                        Page 5
                   However, in 2005, CN increased the line of credit to $150,000 and the
                   executive director signed another promissory note with the same requirement,
                   securing the debt with all accounts, which would include CACFP funds based
                   on the description of the collateral mentioned above.

                   We determined that CN used the line of credit for day-to-day operating
                   expenses, but CN’s continuing negative cash flow (as discussed in Finding 1)
                   caused the line of credit to be depleted. By April 2007, CN exhausted the
                   principal and, that same month, began making interest-only payments on the
                   line of credit. During the period of our review, from October 2006 through
                   February 2008, CN paid $19,532 in principal and interest payments on the
                   line of credit. CACFP funds were used to pay $5,023 of the $19,532. The
                   payment of principal and interest on the unapproved line of credit was not an
                   allowable CACFP cost according to FNS (see exhibit A).

                   When we discussed the issue of collateral with the executive director, she
                   stated she would attempt to remove CACFP funds as collateral because CN’s
                   other grant sources, totaling over $500,000, would be sufficient to secure the
                   loan without including CACFP.

                   Because CACFP funds were subject to confiscation by the bank, CN
                   compromised the integrity of CACFP. Therefore, SA should require CN to
                   take steps to exclude CACFP funds as collateral for the line of credit or
                   remove CACFP funds from control of the bank.

Recommendation 2

                   Instruct the SA to require CN to immediately obtain the exclusion of CACFP
                   funds as collateral for the line of credit.

                   Agency Response

                   FNS agreed with the recommendation. The SA provided FNS with a letter
                   from CN’s bank, dated October 1, 2008, confirming that CN had completed
                   the process of securing a line of credit, which does not include CACFP funds
                   as collateral.

                   OIG Position

                   We accept FNS’ management decision.




USDA/OIG-A/27601-37-CH                                                                    Page 6
Recommendation 3

                                       Instruct the SA to collect $5,023 from CN for unallowable principal and
                                       interest payments on the line of credit.

                                       Agency Response

                                       The SA sent FNS a copy of a “Demand Notice” to CN requesting payment by
                                       March 20, 2009, for the specified amount of $5,023. FNS will verify the
                                       actual collection of these funds during an on-site management evaluation of
                                       the SA scheduled for the week of April 27, 2009.

                                       OIG Position

                                       We accept FNS’ management decision.



Finding 3                              Operating Loans Obtained from Unallowable Sources

                                       CN obtained $85,000 in no-interest loans from sources that were not bona
                                       fide lenders after it exhausted its $150,000 line of credit. Because CN was
                                       unable to meet its monthly operating expenses, it borrowed funds from a for-
                                       profit business entity and from CN’s Executive Director to offset its negative
                                       cash flow. The executive director stated that previous experience in the non-
                                       profit area led her to believe that CN could borrow funds at no interest on a
                                       temporary basis. However, FNS instructions require that all loans must be
                                       obtained from bona-fide lending institutions10 and less-than-arms length
                                       transactions require specific prior written approval.11 As a result, the use of
                                       CACFP funds to repay the improper loans jeopardized the integrity of the
                                       CACFP. These loans from unallowable sources further evidenced the lack of
                                       CN’s operating funds because of decreased administrative funding due to its
                                       loss of providers.

                                       Our review disclosed a contributing factor that caused the CACFP to operate
                                       in a negative cash flow condition. CN had operated the CACFP at a loss of
                                       $12,599 over the scope of our review, October 2006 through February 2008.
                                       Overall, between 2003 and 2006, CN had operated with losses in 3 of 4 years
                                       that totaled $114,501. This occurred because CN lost a number of day care
                                       home providers that either changed sponsors or discontinued participation in
                                       the program. In fiscal year (FY) 2006, CN had sponsored 360 day care
                                       providers; however, by FY 2008, that number had dropped (50 percent) to
                                       179. As the number of day care home providers decreased, CN incurred a

10
     FNS Instruction 796-2 Revision 3 (IX D 8)
11
     FNS Instruction 796-2 Revision 3, Exhibit A, T
USDA/OIG-A/27601-37-CH                                                                                         Page 7
                   corresponding loss in CACFP administrative funding. Our review of CN’s
                   general ledger determined that within the 17-month period from October
                   2006 through February 2008, CN’s cash account balance reached a negative
                   position 25 times. During those times, the account remained negative an
                   average of 7.9 days with an average negative balance of $24,547.

                   In an attempt to pay monthly expenses and to keep CN from failing
                   financially because of its negative cash flow, CN obtained multiple loans
                   from unallowable sources. CN obtained loans totaling $72,000 from a for-
                   profit business entity between March 13, 2007, and June 28, 2007. In
                   addition, CN obtained loans from its executive director totaling $13,000,
                   between May 11, 2007, and August 29, 2007. The for-profit business entity
                   was not a lending institution, and therefore not an allowable source of funds.
                   Also because the executive director was an officer of the sponsor, the loans
                   are considered less-than-arms length transactions that required prior written
                   approval by FNS and the SA. This approval had not been requested. FNS
                   officials concurred that this was not allowable.

                   CN repaid all loans obtained from the for-profit business entity, but we
                   determined that it used at least $5,378 in CACFP funds to do so. The loans
                   were improper and their repayment was an unallowable cost to CACFP. CN
                   had only partially repaid the executive director, but had used $1,000 of
                   CACFP funding. Because the loans were less-than-arms length transactions
                   that were obtained without prior SA and FNS approval, their repayment with
                   CACFP funds were unallowable costs.

                   CN must immediately discontinue its practice of making unallowable loan
                   payments with Program funds. FNS should also require the sponsor to
                   reimburse CACFP $6,378 for loan payments made to sources that were not
                   bona fide lenders (see exhibit A).

Recommendation 4

                   Instruct the SA to obtain $6,378 from CN for the unallowable loan
                   repayments.

                   Agency Response

                   The SA sent FNS a copy of a “Demand Notice” to CN requesting payment by
                   March 20, 2009, for the specified amount of $6,378. FNS will verify the
                   actual collection of these funds during an on-site management evaluation of
                   the SA scheduled for the week of April 27, 2009.

                   OIG Position

                   We accept FNS’ management decision.
USDA/OIG-A/27601-37-CH                                                                    Page 8
Recommendation 5

                   Instruct the SA to require CN to restrict its loan sources to third party lending
                   institutions.

                   Agency Response

                   FNS agreed with the recommendation. The SA provided FNS with a copy of
                   its request for CN to develop a Board approved policy statement restricting
                   loan sources to third party lending institutions on February 13, 2009. FNS
                   will verify actual compliance during an onsite management evaluation of the
                   SA scheduled for the week of April 27, 2009.

                   OIG Position

                   We accept FNS’ management decision.




USDA/OIG-A/27601-37-CH                                                                       Page 9
Section 2: Accounting Methodologies Not According to Generally Accepted
Accounting Principles

Finding 4                          Income and Administrative Expenses Were Overstated

                                    CN did not maintain its financial records according to Generally Accepted
                                    Accounting Principles (GAAP),12 the rules and procedures that govern
                                    accounting for financial transactions. We found that CN had not properly
                                    differentiated between miscellaneous income, receivables and liabilities and
                                    that this resulted in CN overstating its income. We also noted that CN had not
                                    always properly allocated administrative costs to CACFP or they had claimed
                                    unallowable costs. FNS instructions require that sponsors’ accounting
                                    methodologies conform to GAAP.13 They also state that administrative costs
                                    incurred during the conduct of CACFP business can be reimbursed only if the
                                    costs are allowable and are properly allocated.14 These errors occurred
                                    because CN’s staff was not sufficiently familiar with accounting principles.
                                    As a result, CN’s FY 2007 recorded income overstated its financial
                                    statements by $85,400 and CN erroneously claimed $1,035 in unallowable
                                    administrative expenses.

                                   Failure to Follow GAAP Overstated Income in Financial Statements

                                    CN did not properly differentiate between miscellaneous income, receivables
                                    and liabilities. CN had obtained loans of $72,000 from a for-profit entity and
                                    other loans in the amount of $13,000 from its executive director (see
                                    Finding 3). The sponsor recorded the loans as miscellaneous income, thereby
                                    increasing income in its financial statements. However, these loans did not
                                    increase income, but only increased available cash. These loans were actually
                                    liabilities, money that CN owed to others. GAAP requires that transfers of
                                    assets or cash, that are not contributions to a non-profit organization, must be
                                    set up as a liability to the recipient if it is payable.15

                                    Also, in January 2007, a $4,510 debt owed to CN by an employee fired for
                                    theft was not established as a receivable. The employee had repaid $400 to
                                    date, but CN recorded this payment as miscellaneous income, again
                                    increasing CN’s income on its financial statements. CN should have recorded
                                    this type of transaction as a receivable because it was money owed to CN.




12
    Generally Accepted Accounting Principles (GAAP) are accounting rules used to prepare, present, and report financial statements for a variety of
entities, including non-profit organizations.
13
   FNS Instruction 796-2 Revision 3 (VII A)
14
   FNS Instruction 796-2 Revision 3 (VII A 3 i)
15
   Financial Accounting Standard 136 PP 17 (b)
USDA/OIG-A/27601-37-CH                                                                                                                 Page 10
                                      These failures to comply with GAAP inflated CN’s FY 2007 income on its
                                      financial statement by $85,400, and presented a distorted picture of CN’s
                                      financial viability. In order to responsibly manage its finances, CN needs to
                                      adhere to GAAP’s guidelines for non-profit entities.

                                      Costs Improperly Allocated

                                      CN also improperly allocated administrative expenses. Specifically, we found
                                      it had (1) incorrectly allocated the cost of its single audit, (2) allocated the full
                                      amount of service charges for its bank account to CACFP, and (3) charged
                                      CACFP for late fees that were incurred. FNS instructions state that
                                      administrative costs incurred during the conduct of CACFP business can be
                                      reimbursed if the costs are considered allowable and are properly allocated.16
                                      The SA reimbursed CN based on actual administrative expenditures.

                                      CN was billed $7,500 for its FY 2006 single audit and, because of its negative
                                      cash flow, also incurred an additional $375 in late fees before payment was
                                      made. CN allocated 75 percent of the audit invoice and late fees to CACFP
                                      administrative expenses. CN charged CACFP $5,625 ($7,500 x 75%) for the
                                      audit cost and $281 ($375 x 75%) for late fees. CN could not provide us with
                                      the basis for this allocation. FNS instructions require that audit costs be
                                      allocated according to the comparison of CACFP expenses to total
                                      expenses.17 We determined the allocation for the single audit should have
                                      been calculated at 68 percent or $5,100 and therefore CACFP was
                                      overcharged $525 ($5,625 - $5,100). FNS instructions also state that late fees
                                      are not allowable as administrative expenses.18 Therefore, the $281 in late
                                      fees charged to CACFP was improper.

                                      CN also claimed $617.48 for bank fees from May 2007 through February
                                      2008, but did not allocate any portion of these fees to its other grant
                                      programs. FNS instructions require that only the share of costs that benefit
                                      the program be assigned as program costs.19 CN should have allocated a
                                      portion of the bank fees to its other grant programs that benefited in the same
                                      percentage as the audit fees. We determined that only $419.89 ($617.48 x
                                      68%) should have been charged to the CACFP and the balance of
                                      $198 ($617.48–$419.89=$197.59 rounded to $198.00) should have been
                                      distributed to other grant programs it administered. CN’s failure to allocate
                                      bank fees resulted in the CACFP being overcharged by $198.

                                      Because it often lacked sufficient cash, CN incurred other late payment fees
                                      from vendors. We reviewed invoices from October 2007 through February
                                      2008 and noted five additional invoices that included late fees totaling $31.

16
   FNS Instruction 796-2 Revision 3 (VII A 3 i)
17
   FNS Instruction 796-2 Revision 3 (VIII I 4 a 1)
18
   FNS Instruction 796-2 Revision 3 (VIII I 5)
19
   FNS Instruction 796-2 Revision 3 (VII) B
USDA/OIG-A/27601-37-CH                                                                                            Page 11
                   CN claimed the $31 in late fees as administrative costs; however, these costs
                   were not allowable and resulted in CN overstating its administrative costs.

                   Overall, CN inflated its administrative costs by failing to properly allocate
                   audit costs and bank fees totaling $723 ($525 + $198) and by claiming late
                   fees totaling $312 ($281 + $31) that were not allowable costs for the CACFP
                   (see exhibit A).

Recommendation 6

                   Instruct the SA to ensure CN revises its accounting methodology to adhere to
                   GAAP for non-profit entities.

                   Agency Response

                   FNS agreed with the recommendation. The SA sent FNS a copy of a letter,
                   dated, February 13, 2009, requiring CN to revise its accounting methodology
                   and to adhere to GAAP for non-profit entities. FNS will verify actual
                   compliance during an onsite management evaluation of the SA scheduled for
                   the week of April 27, 2009. Additionally, FNS will require the SA to review
                   the implementation and effectiveness of CN’s accounting methodologies.

                   OIG Position

                   We accept FNS’ management decision.

Recommendation 7

                   Require the SA to collect $723 for improperly allocated costs.

                   Agency Response

                   The SA sent FNS a copy of a “Demand Notice” to CN requesting payment by
                   March 20, 2009, for the specified amount of $723. FNS will verify the actual
                   collection of these funds during an on-site management evaluation of the SA
                   scheduled for the week of April 27, 2009.

                   OIG Position

                   We accept FNS’ management decision.




USDA/OIG-A/27601-37-CH                                                                  Page 12
Recommendation 8

                   Require the SA to collect $312 for unallowable late fees.

                   Agency Response

                   The SA sent FNS a copy of a “Demand Notice” to CN requesting payment by
                   March 20, 2009, for the specified amount of $312. FNS will verify the actual
                   collection of these funds during an on-site management evaluation of the SA
                   scheduled for the week of April 27, 2009.

                   OIG Position

                   We accept FNS’ management decision.




USDA/OIG-A/27601-37-CH                                                                 Page 13
Section 3: State Agency Did Not Provide Adequate Oversight for CACFP Sponsoring
Organizations

Finding 5                          State Agency Did Not Retain Adequate Documentation of
                                   Sponsor’s Monitoring Reviews

                                   The SA was unable to provide documentation of its monitoring review
                                   performed of CN in 2005 and could not confirm if fiscal action was taken
                                   against CN for provider meal reimbursement overclaims totaling $22,136. SA
                                   officials stated that its review staff had failed to document the review and had
                                   failed to notify the sponsor of its results. No further explanation could be
                                   provided. Because of this, CN had never been apprised of any findings or of
                                   corrective actions it needed to take in response to those findings. CN had also
                                   not been informed of the provider overclaims and did not know if the SA ever
                                   recovered the overclaim amounts through reductions in administrative
                                   reimbursement. As a result, it is not known if corrective actions required to
                                   address review findings would have obviated any of the deficiencies we
                                   identified. Additionally, SA could not provide documentation that they had
                                   collected the debt of $22,136 from CN.

                                   FNS regulations require that all sponsoring organizations with more than
                                   100 facilities be reviewed by the administering SA at least once every two
                                   years.20 The regulations require the SA to maintain documentation of
                                   supervisory assistance actions, including the reviews conducted, corrective
                                   actions prescribed, and follow-up efforts undertaken.21 The SA explained that
                                   because of an inadequate number of staff, it was unable to perform all the
                                   required monitoring reviews, and stated that a prior administration had either
                                   destroyed or never generated some of the monitoring reports. In particular,
                                   the SA did not retain the results of its monitoring review of CN performed in
                                   2005 and failed to disclose the results of its findings to CN, which included a
                                   fiscal action against CN for meal reimbursement overclaims by providers in
                                   the amount of $22,136. Because of the SA’s lack of followup and record
                                   retention, CN was not notified of any problems that needed corrective actions
                                   and was not aware of provider overclaims.

                                   Additionally, the SA could not confirm if action had been taken against CN to
                                   collect the overclaims and if it had been collected by decreases in
                                   administrative funding. SA officials said that because records showed CN
                                   currently had a zero balance owed to the SA, they could only assume that the
                                   overclaim had been repaid. The SA explained that the repayment for the
                                   fiscal action would have been made through decreases in CN’s monthly
                                   administrative funding that the SA provided; therefore CN would not have

20
     7 C.F.R. 226.6 (m) (6) (ii)
21
     7 C.F.R. 226.6 (m) (1)
USDA/OIG-A/27601-37-CH                                                                                    Page 14
                                       made a direct payment to the SA and, possibly, was unaware of the fiscal
                                       action against it. CN’s Executive Director stated that she had been
                                       interviewed by SA staff about the time the review was performed, but she had
                                       not received a report and was not aware fiscal action should have been taken
                                       for meal reimbursement overclaims. We assessed the administrative
                                       payments to CN in 2005 and 2006, but did not identify any payments the SA
                                       had reduced. The payments were consistent and appeared to be reasonable for
                                       the size of the sponsor. Therefore, we cannot concur that the SA collected
                                       payment from CN through decreases in administrative funding.

                                       The Food and Nutrition Service’s Regional Office (FNSRO) performed a
                                       Management Evaluation (ME) of the SA’s administration of the CACFP in
                                       March 2007 and identified that the SA was not timely conducting the required
                                       monitoring reviews of sponsoring organizations (at least every 3 years), that
                                       some review documentation was missing or incomplete, and that some review
                                       reports were not issued in a timely manner. As a result, to ensure the integrity
                                       of the CACFP, FNS required the SA to take corrective actions to ensure that
                                       monitoring review reports were sent to the sponsors in a timely manner,
                                       review records were maintained on file, and the required review cycle was
                                       met. SA officials stated they had reconstructed a review log back to 2003 to
                                       be used to help ensure sponsors reviews are completed when due. They also
                                       notified FNSRO that additional staff had been hired. The SA’s Associate
                                       Director for Child Nutrition explained that the SA is currently on-track for
                                       completing 33.3 percent of the required monitoring reviews for its sponsoring
                                       organizations in FY 2008, but that the SA is struggling to meet monitoring
                                       requirements because of the lack of staff and the growth of CACFP in the
                                       state.

                                       The timely performance of monitoring reviews by the SA is a longstanding
                                       problem. In addition to the ME that FNSRO conducted in 2007, the failure to
                                       timely monitor sponsors in the State was also reported in a 2004 ME. An OIG
                                       audit, issued in January 2002,22 also reported that the SA had failed to timely
                                       monitor CACFP sponsors, completing reviews of less than 20 percent of its
                                       sponsors when at least 33 percent was required. At that time, SA officials
                                       attributed their failure to a lack of staff.

                                       Without timely, properly documented reviews, the SA cannot provide
                                       assurance that CACFP funds are being used effectively and efficiently for
                                       program purposes. Because this has been a recurring problem, FNSRO must
                                       act to ensure the actions reportedly taken by the SA in response to the
                                       2007 ME are effective. In addition, FNSRO must ensure the SA has
                                       recovered the $22,136 of provider overclaims identified for CN in 2005.



22
     Audit report 27002-14-Ch, State Agencies’ Oversight of the Child and Adult Care Food Program, issued January 14, 2002.
USDA/OIG-A/27601-37-CH                                                                                                        Page 15
     Recommendation 9

                   Require the SA to determine if the $22,136 in overclaims reported for CN
                   providers have been collected. If not, require the SA to initiate action to
                   complete the recovery.

                   Agency Response

                   The SA sent FNS a copy of a “Demand Notice” to CN requesting payment of
                   $22,136 for overclaims by March 20, 2009. FNS will verify the actual
                   collection of these funds during an on-site management evaluation of the SA
                   scheduled for the week of April 27, 2009.

                   OIG Position

                   We accept FNS’ management decision.

     Recommendation 10

                   Ensure that corrective actions taken by the SA to complete monitoring
                   reviews as required, maintain review documentation, and issue timely reports,
                   in response to the 2007 ME, effectively address and correct the problems
                   reported.

                   Agency Response

                   FNS agreed with the recommendation. FNS will perform a focused
                   management evaluation for the SA the week of April 27, 2009. FNS will
                   closely examine the effectiveness of the SA’s monitoring systems and
                   procedures to ensure compliance with previously identified 2007 corrective
                   actions and OIG recommendations.

                   OIG Position

                   We accept FNS’ management decision.




USDA/OIG-A/27601-37-CH                                                                  Page 16
Scope and Methodology
                   During FY 2007, the State of Ohio received $17.7 million for CACFP day
                   care home meal reimbursements and an additional $3 million in State
                   administrative expenses. CN received almost $1 million for meal
                   reimbursements and an additional $170,000 for administrative expenses. The
                   sponsor provided oversight for approximately 259 day care homes in
                   FY 2007 and 179 in FY 2008, as of July 2008.

                   Our audit covered FY 2007 and 2008, and other periods as noted below. Our
                   assessment of CN’s financial operations included October 2006 through
                   February 2008. Fieldwork was conducted at the FNSRO in Chicago, Illinois;
                   the SA, the Ohio Department of Education in Columbus, Ohio; the sponsor,
                   CN, in Toledo, Ohio; and at judgmentally selected day care home providers.

                   To accomplish our objectives we reviewed regulations, policies and
                   procedures governing CACFP, including the interim rule published by FNS
                   in the Federal Register on January 1, 2007.

                   At the FNSRO:

                                Interviewed FNSRO officials to determine the controls used to
                                monitor the State agency, sponsoring organizations, and
                                providers.
                                Examined records, reports, correspondence and documentation
                                related to the SA’s oversight of sponsoring organizations and
                                centers in Ohio, including CN, and its day care home providers.

                   At the SA:

                                Evaluated the SA’s compliance with required sponsor’s reviews
                                and required corrective actions.
                                Assessed the SA’s compliance with single audits.
                                Interviewed officials to determine their oversight of CN and to
                                gain familiarity with the CACFP’s procedures at the State.




USDA/OIG-A/27601-37-CH                                                                 Page 17
                At the sponsor we:

                              Assessed CN’s cash position through its general ledger.
                              Analyzed CN’s cash account, payroll records, and bank records.
                              Evaluated CN’s process for reviewing meal claim data submitted
                              by its providers.
                              Assessed documentation related to the monitoring and training of
                              day care home providers by CN.
                              Reviewed CN’s monitoring process of providers.
                              Examined provider reimbursements to determine if CN paid its
                              providers timely.
                              Interviewed CN’s Executive Director to determine the cause of
                              the negative cash flow.
                              Examined CN’s bank account to determine if CN commingled
                              source grant funds.
                              Reviewed CN’s independent audit reports from FY 2003 to FY
                              2006.
                              Judgmentally selected 50 of 151 day care home providers from
                              the December 2007 meal claims to determine compliance with
                              CACFP regulations by using the following criteria: (1) number of
                              days claimed, (2) large dollar amount claimed, (3) large number
                              of children claimed, (4) small amount dollar claimed, (5) average
                              attendance similar to daily attendance, (6) similar or inconsistent
                              claims compared to other months, and (7) providers suggested for
                              review by Collaborative Network.

                At the providers we:

                              Conducted home visits to observe meal operation and ensure
                              compliance with CACFP requirements for recordkeeping, meal
                              reimbursements, and the nutritional content of meals.
                              Interviewed providers regarding meal service operation and
                              familiarity with CACFP’s rules and regulations.

                We conducted this performance audit in accordance with generally accepted
                government auditing standards. Those standards require that we plan and
                perform the audit to obtain sufficient, appropriate evidence to provide a
                reasonable basis for our findings and conclusions based on our audit objectives.
                We believe that the evidence obtained provides a reasonable basis for our
                findings and conclusions based on our audit objectives.




USDA/OIG-A/27601-37-CH                                                                  Page 18
Exhibit A – Summary of Monetary Results
                                                                  Exhibit A – Page 1 of 1




Finding     Recommendation      Description      Amount    Monetary Results
Number          Number
                             Principal and
Finding 2         3          interest payments   $5,023    Questioned Costs –
                             on an unallowable                 Recovery
                             line of credit                 Recommended
                             Unallowable                   Questioned Costs –
Finding 3         4          payments to non-    $6,378        Recovery
                             bona fide lenders              Recommended
                             Improperly                    Questioned Costs –
Finding 4         7          allocated costs     $ 723         Recovery
                                                            Recommended
                    Unallowable late                       Questioned Costs –
Finding 4   8       fees paid on                 $ 312         Recovery
                    invoices                                Recommended
                    Fiscal action for                      Questioned Costs –
Finding 5   9       meal reimbursement           $22,136       Recovery
                    overclaims                              Recommended
TOTAL MONETARY RESULTS                           $34,572




USDA/OIG-A/27601-37-CH                                                         Page 19
Exhibit B – Non-program Expenses Paid with CACFP Funds
                                                                                                              Exhibit B – Page 1 of 1



                                                  Date Paid                              Amount23
                                                   12/21/06                                      $15,000.00
                                                   02/09/07                                        6,901.29
                                                   02/10/07                                          754.56
                                                   02/12/07                                        8,000.00
                                                   03/29/07                                       25,000.00
                                                   06/01/07                                       30,471.29
                                                   06/04/07                                           76.00
                                                   09/01/07                                          608.52
                                                   09/04/07                                        1,000.00
                                                   11/16/07                                        2,643.52
                                                   11/19/07                                           76.00
                                                   11/20/07                                          147.20
                                                   11/21/07                                           90.00
                                                   11/26/07                                        3,520.17
                                                   11/30/07                                       22,164.07
                                                   12/01/07                                          639.46
                                                   12/03/07                                        1,166.73
                                                   12/04/07                                        1,952.51
                                                   01/01/08                                          574.62
                                                   01/09/08                                          828.66
                                                   01/11/08                                       11,233.94
                                                   01/14/08                                           76.00
                                                   01/15/08                                        2,542.79
                                                   01/16/08                                        1,060.42
                                                   01/18/08                                          180.00
                                                   01/20/08                                          147.20
                                                   01/23/08                                          490.81
                                                   01/24/08                                          166.50
                                                   01/25/08                                       16,805.48
                                                   01/28/08                                        2,874.80
                                                   01/31/08                                        2,182.01
                                                   02/20/08                                        6,402.63
                                                   02/22/08                                       24,110.85
                                                   02/25/08                                           76.00
                                                   02/28/08                                        5,504.82
                                                    Total                                       $195,468.85


23
     Amounts listed comprised payments for expenses of other programs administered by the sponsor.
USDA/OIG-A/27601-37-CH                                                                                                     Page 20
Exhibit C – Dates Collaborative Network Paid Providers Late
                                                                         Exhibit C – Page 1 of 1




                                                                      Number
                   Number       Claim      Date State   Date CN       of days
                    of late     month       paid CN       paid       CN paid
                   occasions                            providers    providers
                                                                        late
                         1     July 2007   9/14/2007    10/01/2007      6

                         2     Oct 2007    12/18/2007 01/03/2008        5

                         3     Nov 2007    01/07/2008 01/23/2008        6

                         4     Nov 2007    01/07/2008 02/06/2008        16

                         5     Nov 2007    01/17/2008 02/13/2008        13

                         6     Dec 2007    01/17/2008 02/06/2008        8

                         7     Dec 2007    01/25/2008 02/13/2008        8




USDA/OIG-A/27601-37-CH                                                                Page 21
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 11




USDA/OIG-A/27601-37-CH                      Page 22
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 11




USDA/OIG-A/27601-37-CH                      Page 23
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 11




USDA/OIG-A/27601-37-CH                      Page 24
Exhibit D – Agency Response
                              Exhibit D – Page 4 of 11




USDA/OIG-A/27601-37-CH                      Page 25
Exhibit D – Agency Response
                              Exhibit D – Page 5 of 11




USDA/OIG-A/27601-37-CH                      Page 26
Exhibit D – Agency Response
                              Exhibit D – Page 6 of 11




USDA/OIG-A/27601-37-CH                      Page 27
Exhibit D – Agency Response
                              Exhibit D – Page 7 of 11




USDA/OIG-A/27601-37-CH                      Page 28
Exhibit D – Agency Response
                              Exhibit D – Page 8 of 11




USDA/OIG-A/27601-37-CH                      Page 29
Exhibit D – Agency Response
                              Exhibit D – Page 9 of 11




USDA/OIG-A/27601-37-CH                      Page 30
Exhibit D – Agency Response
                              Exhibit D – Page 10 of 11




USDA/OIG-A/27601-37-CH                       Page 31
Exhibit D – Agency Response
                              Exhibit D – Page 11 of 11




USDA/OIG-A/27601-37-CH                       Page 32
Informational copies of this report have been distributed to:

Administrator, FNS MWRO                                         (6)
Agency Liaison Officer                                          (3)
Office of the Chief Financial Officer                           (1)
 Director, Planning and Accountability Division
General Accounting Office                                       (1)
Office of Management and Budget                                 (1)
